No. 20-1786
IN THE

Supreme Court of the United States
_________
JOANNE TROESCH AND IFEOMA NKEMDI,
Petitioners,
v.
CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE BOARD
OF EDUCATION OF THE CITY OF CHICAGO,
Respondents.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
_________
REPLY BRIEF FOR THE PETITIONERS
_________
JOSEPH A. MORRIS
MORRIS & DE LA ROSA
6171 N. Sheridan Rd.
Suite 312
Chicago, IL 60660
(312) 927-4680
mdlrusuk@aol.com

WILLIAM MESSENGER
Counsel of Record
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioners

TABLE OF CONTENTS
Page
INTRODUCTION ....................................................... 1
I.

The Seventh Circuit’s Decision Conflicts
with Janus ........................................................ 2

II.

This Case Is Important Because States and
Unions Are Severely Restricting When Employees Can Exercise Their First Amendment
Rights under Janus .......................................... 8

III.

This Case Is an Excellent Vehicle to Resolve
The Question Presented ................................... 9

CONCLUSION .......................................................... 11

(i)

TABLE OF AUTHORITIES
Page(s)
CASES
Belgau v. Inslee,
975 F.3d 940 (9th Cir. 2020) ...................................7
Cohen v. Cowles Media Co.,
501 U.S. 663 (1991).............................................. 5, 6
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967).................................... 2, 4, 5, 11
Harris v. Quinn,
573 U.S. 616 (2014)..................................................1
Johnson v. Zerbst,
304 U.S. 458 (1938)..................................................4
Moran v. Burbine,
475 U.S. 412 (1986)..................................................5
CONSTITUTION, STATUTES, AND RULES
U.S. Const. amend. I ......................................... passim
115 Ill. Comp. Stat. § 5/11.1 .............................. 5, 8, 10

(ii)

1
INTRODUCTION
This case concerns whether it violates the First
Amendment for a government employer and union to
compel objecting employees who are not union members to subsidize union speech until they satisfy a restriction on stopping payroll deductions of union dues.
This issue is an important one. To resist this Court’s
holding in Janus v. AFSCME Council 31, 138 S. Ct.
2448 (2018), public employers and unions in Illinois
and other states are systematically prohibiting employees from stopping payroll deductions of union
dues except during ten-to-thirty day annual periods.
Chicago Teachers Union, Local 1 (“CTU”) tries to
distract the Court from the issue before it by discussing union members voluntarily paying union dues.
CTU Br. (i), 3, 12, 14. But this case concerns dues involuntarily seized from employees who resigned their
union membership—i.e., from employees who are
“nonmembers” under Janus, 138 S. Ct. at 2486.
The Board of Education of the City of Chicago, for its
part, claims it did not compel petitioners JoAnne
Troesch and Ifeoma Nkemdi to pay for CTU’s speech
after they became nonmembers. Board Br. 7, 11. The
Board ignores that it seized union dues from petitioners’ wages after they expressly objected to supporting
the union financially. Pet.App. 7-8. The Board’s seizures violated the “bedrock principle” that “no person
in this country may be compelled to subsidize speech
by a third party that he or she does not wish to support.” Harris v. Quinn, 573 U.S. 616, 656 (2014).
Janus made clear that government employers and
unions cannot seize payments for union speech from

2
objecting nonmembers absent “‘clear and compelling’
evidence” they waived their constitutional rights. 138
S. Ct. at 2486 (quoting Curtis Publ’g Co. v. Butts, 388
U.S. 130, 145 (1967) (plurality opinion)). To ensure
that employee speech rights are not hamstrung by onerous restrictions on when employees can stop government deductions of union dues, the Court should
grant review and instruct the lower courts to enforce
Janus’ waiver requirement.
I.

The Seventh Circuit’s Decision Conflicts
with Janus.

1. The Seventh Circuit defied this Court’s holding in
Janus, 138 S. Ct. at 2486, by declaring that governments and unions do not need clear and compelling
evidence of a waiver to seize union dues from employees who become nonmembers and object to those seizures. Bennett v. AFSCME Council 31, 991 F.3d 724,
732-33 (7th Cir. 2021) (Pet.App. 29-31), petition for
cert. filed No. 20-1603 (May 18, 2021). Indeed, even
without Janus’ waiver holding, the lower court should
have found that the government cannot restrict employees’ exercise of their First Amendment right under Janus unless employees waive that right.
Contrary to the false impression CTU tries to create,
this case does not concern union members voluntarily
paying union dues for membership benefits. It concerns union dues involuntarily seized from petitioners
and other employees after they resigned their membership in CTU, and thus became ineligible for membership benefits. Pet.App. 7-8. This case involves
“nonmembers,” just as Janus did. 138 S. Ct. at 2486.
Janus does not pertain only to nonmembers who
never joined a union, as CTU contends (at 13). Janus

3
pertains equally to employees who become nonmembers by resigning their union membership. Employees
who join a union in the past do not forfeit their First
Amendment right to stop subsidizing that union’s
speech in the future. Employees who choose to exercise their right by resigning their membership are as
much “nonmembers” under Janus as employees who
never joined in the first place. 138 S. Ct. at 2486. If
anything, petitioners’ affirmative act of resigning and
objecting only makes their opposition to financially
supporting CTU and its speech more apparent.
As nonmembers, petitioners were required to financially support CTU because the Board and CTU’s collective bargaining agreement and dues deduction
form prohibit employees from stopping dues deductions except in August. Pet.App. 6-7. As a result, petitioners were compelled to pay for union speech that
they did not want to subsidize. In fact, the First
Amendment injury Troesch and Nkemdi suffered was
worse than if the Board and CTU had compelled them
to pay agency fees after they became nonmembers because the Board and CTU compelled petitioners to pay
full union dues over their objections. See Pet. 13-14.
Under Janus, the Board and CTU’s conduct violated
petitioners’ First Amendment rights unless they
waived those rights. 138 S. Ct. at 2486. Contrary to
CTU’s claim (at 15), Janus’ waiver language was
meant to do more than merely “make clear that the
States cannot presume from nonmembers’ inaction
that they wish to support a union.” (emphasis in original). The Court established the evidentiary burden
that government employers and unions must satisfy
to prove employees consent to supporting a union by
holding that “to be effective, the waiver must be freely

4
given and shown by ‘clear and compelling’ evidence.”
Id. (quoting Curtis Publ’g, 388 U.S. at 145).
Clear and compelling evidence of a waiver under the
three precedents cited in Janus means proof of an “‘intentional relinquishment or abandonment of a known
right or privilege.” Coll. Sav. Bank v. Florida Prepaid
Postsecondary Ed. Expense Bd., 527 U.S. 666, 682
(1999) (quoting Johnson v. Zerbst, 304 U.S. 458, 464
(1938)); see Curtis Publ’g, 388 U.S. at 143-45 (applying
this standard to an alleged waiver of First Amendment rights). These criteria are sometimes stated as
requiring that a valid waiver must be voluntary,
knowing, and intelligently made and its enforcement
not be against public policy. See Pet. 17.
The Board and CTU cannot satisfy this exacting
standard for proving Troesch and Nkemdi waived
their First Amendment right to stop subsidizing
CTU’s speech. Among other things, there is no clear
or compelling evidence that petitioners, when they
signed dues deductions forms in September 2017,
knew they had a First Amendment right not to subsidize union speech or voluntarily and intelligently
chose to waive that right. Pet. 18-19.
CTU contends (at 15-16) that proof of a contract satisfies Janus’ consent requirement. But that contention conflicts with this Court’s repeated use of the
term “waiver” in Janus, 138 S. Ct. at 2486. The Court
stated that “[b]y agreeing to pay, nonmembers are
waiving their First Amendment rights,” that “such a
waiver cannot be presumed,” and that “to be effective,
the waiver must be freely given and shown by ‘clear
and compelling’ evidence.” Id. (quoting Curtis Publ’g,

5
388 at 145). The Court in Janus clearly required proof
of a “waiver,” and not proof of a contract.
The two are not equivalent. The criteria for proving
a waiver of a constitutional right is different and more
exacting than the criteria for proving formation of a
contract. For example, a key element to proving a
waiver is that an individual must have known of the
constitutional right that he or she allegedly waived—
i.e., the individual must have “a full awareness of both
the nature of the right being abandoned and the consequences of the decision to abandon it.’” Moran v.
Burbine, 475 U.S. 412, 421 (1986); see Curtis Publ’g,
388 U.S. at 144-45 (holding that an individual did not
waive his First Amendment right because he did not
know of that right). That is not an element to proving
a contract. Here, even if the Board and CTU’s dues
deduction form amounts to a contract, it does not
amount to clear and compelling evidence of a waiver
because nothing on the form proves a signatory knew
of his or her First Amendment right not to support
CTU or intelligently chose to waive that right.
2. CTU’s reliance on Cohen v. Cowles Media Co., 501
U.S. 663 (1991) is misplaced for the reasons discussed
in the petition at 14-16, which CTU does not try to rebut. This case does not involve a private agreement
like Cohen, but restrictions in the Board and CTU’s
collective bargaining agreement and dues deduction
form. This case does not involve a law of general applicability like Cohen, but a state labor law that governs when educational employers must deduct union
dues from employees’ wages. Illinois’s Education Labor Relations Act (“IELRA”) Section 11.1, 115 Ill.
Comp. Stat. § 5/11.1 (as amended by P.L. 101-0620,
eff. Dec. 20, 2019) (Pet.App.41–46). Most importantly,

6
unlike with the conduct in Cohen, the state action
here—seizures of payments for union speech from objecting nonmembers—violates the First Amendment
rights absent proof the employees waived their rights.
Cohen does not stand for the remarkable proposition
that “the First Amendment is not implicated by a
promise that is enforceable under generally applicable
principles of state law.” CTU Br. 12; see Bennett, 991
F.3d at 732-33 (Pet.App. 30). Cohen narrowly found
that it did not violate the First Amendment for a state
court to enforce a private agreement with a law of general applicability. Cohen 501 U.S. at 669. The Court
did not turn the Constitution’s Supremacy Clause on
its head and declare that state contract law supersedes the First Amendment.
There is no rational reason why the existence of a
contract would render the First Amendment inapplicable to state actions that otherwise violate individuals’ speech rights (like a state compelling an individual to pay for union speech). A valid waiver by an individual of his or her constitutional rights may have
that effect, but a waiver is different from a contract.
The Seventh Circuit’s misinterpretation of Cohen,
like its misinterpretation of Janus, imperils First
Amendment freedoms by substituting a lesser contract analysis for a more rigorous waiver analysis. The
Court should clarify its holdings in Cohen and Janus
and firmly establish that states cannot violate individuals’ speech rights absent clear and compelling evidence those individuals knowingly, intelligently, and
voluntarily waived those rights.

7
3. The Court should not wait for a circuit split to correct the Seventh Circuit’s decision to effectively eliminate Janus’ waiver requirement. The Third, Seventh,
Ninth, and Tenth Circuits got it uniformly wrong in
interpreting Janus to not require clear and compelling
evidence of a waiver for governments and unions to
seize payments for union speech from objecting nonmembers. See Pet. 12-16. The courts’ misinterpretation of Janus also is not unanimously shared. At least
sixteen State Attorneys General correctly interpret
Janus to prohibit states from extracting union dues
from employees unless those employees waived their
First Amendment rights. See State of Alaska et al.
Amicus Br. 7-10.
The Court did not decline to review the exact question presented here in Belgau v. Inslee, 975 F.3d 940
(9th Cir. 2020), cert denied, No. 20-1120 (June 21,
2021). Belgau presented the broader question of
whether all deductions of union dues from employees,
including from union members, require proof the employees waived their constitutional rights. See Pet. (i),
12, Belgau, No. 20-1120 (Feb. 11, 2021). According to
the respondent union in Belgau, the “case . . . does not
present a question regarding the timeliness of an objection” to paying union dues. Resp. Wash. Fed’n of
State Employees’ Br. in Opp. 11, Belgau, No. 20-1120
(May 12, 2021). In contrast, this petition presents the
narrower question of whether governments and unions need proof of a waiver “to seize payments for union speech from employees who provide notice they
are nonmembers and object to supporting the union.”
Pet. (i) (emphasis added). Petitioners challenge the

8
constitutionality of the Board and CTU’s policy of prohibiting employees from exercising their right to stop
subsidizing union speech except in August. Id. at 6.
If Janus’s waiver requirement applies in any circumstance, it applies in the circumstance presented
here. The Seventh Circuit’s conclusion that no waiver
is required for the government and unions to seize
dues from nonmembers over their objections cannot be
reconciled with Janus and should be overruled.
II.

This Case Is Important Because States
and Unions Are Severely Restricting
When Employees Can Exercise Their First
Amendment Rights Under Janus.

The vitality of Janus’ waiver requirement is profoundly important because states and unions are undermining the speech rights Janus recognized by
sharply restricting when employees can exercise those
rights. Pet. 2-3. A dozen states amended their labor
laws to require government employers to enforce restrictions on when employees can stop paying union
dues, and at least five other states enforce these restrictions under their pre-existing laws. Id. at 2-3.
Illinois’ conduct is illustrative. The State amended
its labor laws in December 2019 to authorize public
employers and unions to establish “limits on the
rights the employee to revoke [a dues deduction] authorization, including a period of irrevocability that
exceeds on year.” 115 Ill. Comp. Stat. § 5/11.1(a)
(Pet.App. 41-42). The statute also provides that dues
deduction authorizations can be made irrevocable for
all but ten-days of each year. Id. (Pet.App. 42).

9
The Seventh Circuit’s decision makes it easy for
states like Illinois to restrict when employees can exercise their First Amendment rights under Janus.
The restrictions simply need to be recited in the fine
print of employees’ dues deduction forms. See Pet. 24.
The same would not be true if Janus’ waiver requirement were enforced. An employee’s right not to subsidize union speech could not be restricted absent clear
and compelling evidence the employee was notified of
his or her right and voluntarily and intelligently chose
to waive it. Id. at 24-25; see Pacific Legal Foundation
Amicus Br. 8-11. The restrictions also could not be so
onerous as to be against public policy. Pet. 29.
It is important that the Court establish that states
and unions cannot restrict employees’ rights under
Janus unless employees waive their rights. Otherwise, absent this Court’s review, states and unions
will continue to hamstring the important First
Amendment right this Court recently recognized.
III. This Case Is an Excellent Vehicle to Resolve
the Question Presented
This case presents a fact pattern that has become all
too common since the Court issued its decision in Janus: a government employer and union seizing payments for union speech from objecting employees pursuant to a restriction on when employees can stop payroll deductions of union dues. The case is thus an excellent vehicle for establishing the legal standard applicable to this widely-used tactic for restricting employees’ speech rights under Janus.
The constitutionality of IELRA Section 11.1 is at issue here, contrary to the Board and CTU’s claims.
Board Br. 10; CTU Br. 6 n.1. CTU concedes that the

10
“statute, by its terms, was intended to have retroactive effect.” CTU Br. 6 n.1.1 The statute thus applies
to the dues seized from Troesch and Nkemdi before
the statute’s effective date of December 20, 2019. The
statute also governed the Board and CTU’s seizures of
dues from petitioners after the statute’s effective date
until September 1, 2020. Indeed, CTU reiterated to
petitioners in letters dated March 9, 2020 that their
requests to stop dues deductions would not be honored
until August 2020. Compl. ¶ 24, D. Ct. ECF No. 2
(May 4, 2020).
Petitioners have standing to challenge the constitutionality of IELRA Section 11.1, which authorizes restrictions on when educational employees can stop
payroll deductions of union dues. 115 Ill. Comp. Stat.
§ 5/11.1(a) (Pet.App. 41-42). Even if they did not, the
constitutionality of the Board and CTU’s restriction is
squarely before the Court. This case is a suitable vehicle for clarifying that restrictions on when employees can stop paying for union speech are unenforceable absent “‘clear and compelling’ evidence” the em-

1

IELRA Section 11.1(a) states in relevant part:
This Section shall apply to all claims that allege that an
educational employer or employee organization has improperly deducted or collected dues from an employee without regard to whether the claims or the facts upon which
they are based occurred before, on, or after the effective
date of this amendatory Act of the 101st General Assembly
and shall apply retroactively to the maximum extent permitted by law.

115 Ill. Comp. Stat. § 5/11.1(a) (Pet.App. 42).

11
ployees subject to them waived their First Amendment rights. Janus, 138 S. Ct at 2486 (quoting Curtis
Publ’g, 388 U.S. at 145).
CONCLUSION
The Court should grant the petition for certiorari.
Respectfully submitted,
JOSEPH A. MORRIS
Morris & De La Rosa
6171 N. Sheridan Rd.
Suite 312
Chicago, IL 60660
(312) 927-4680
mdlrusuk@aol.com

WILLIAM MESSENGER
Counsel of Record
FRANK D. GARRISON
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioners

OCTOBER 13, 2021

